Department of Homeland Security
   Ofﬁce of Inspector General

            Information Technology Management
            Letter for the FY 2009 U.S. Citizenship
             and Immigration Services Financial
                        Statement Audit




OIG-10-93                                             June 2010
                                                                                Office of Inspector General

                                                                     U.S.	 Department ofHomeland Security
                                                                                    Washington, DC 25028




                                                               Homeland
                                                               Security
                             JUN - 8 ZUlU

                                             Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2009 U.S.
Citizenship and Immigration Services (USCIS) financial statement audit as of September 30,
2009. It contains observations and recommendations related to information technology internal
control that were summarized in the Independent Auditors Report dated January 15, 2010 and
                                                           J


presents the separate restricted distribution report mentioned in that report. The independent
accounting firm KPMG LLP (KPMG) performed the audit procedures at USCIS in support of the
DHS FY 2009 financial statements and prepared this IT management letter. KPMG is
responsible for the attached IT management letter dated March 10,2010, and the conclusions
expressed in it. We do not express opinions on DHS' financial statements or internal control or
conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.



                                       ~A
                                     Frank DeffePf-
                                     Assistant Inspector General
                                     Information Technology Audits
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




March 10, 2010

Inspector General
U.S. Department of Homeland Security
Chief Information Officer and Chief Financial Officer
U.S. Citizenship and Immigration Services

Ladies and Gentlemen:

We have audited the consolidated balance sheet of the U.S. Citizenship and Immigration Services
(USCIS), a component of the U.S. Department of Homeland Security (DHS), as of September 30,
2009 and the related consolidated statements of net cost, changes in net position, and the combined
statement of budgetary resources (hereinafter referred to as “consolidated financial statements”) for
the years then ended. In planning and performing our audit of the consolidated financial statements
of USCIS, in accordance with auditing standards generally accepted in the United States of
America, we considered USCIS’s internal control over financial reporting (internal control) as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements but not for the purpose of expressing an opinion on the
effectiveness of USCIS’s internal control. Accordingly, we do not express an opinion on the
effectiveness of USCIS’s internal control.
In planning and performing our fiscal year 2009 audit, we considered USCIS’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of USCIS’s internal
control, determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. To achieve this purpose, we did
not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an
opinion on the effectiveness of USCIS’s internal control over financial reporting. Accordingly, we
do not express an opinion on the effectiveness of USCIS’s internal control over financial reporting.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.
Our audit of USCIS as of, and for the year ended, September 30, 2009 disclosed a material
weakness in the areas of information technology (IT) configuration management, security
management, access controls, and segregation of duties. These matters are described in the IT
General Control Findings by Audit Area section of this letter.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
The material weakness described above is presented in our Independent Auditors’ Report, dated
January 15, 2010. This letter represents the separate restricted distribution letter mentioned in that
report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through a Notice of Finding and Recommendation (NFR). Our
audit procedures are designed primarily to enable us to form an opinion on the consolidated
financial statements, and therefore may not bring to light all weaknesses in policies or procedures
that may exist. We aim to use our knowledge of USCIS gained during our audit engagement to
make comments and suggestions that are intended to improve internal control over financial
reporting or result in other operating efficiencies.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key USCIS financial systems and IT infrastructure within the scope of the FY 2009
USCIS consolidated financial statement audit in Appendix A; a description of each internal control
finding in Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments
related to certain additional matters have been presented in a separate letter to the Office of
Inspector General and the USCIS Chief Financial Officer dated January 15, 2010.

This communication is intended solely for the information and use of DHS and USCIS
management, DHS Office of Inspector General, OMB, U.S. Government Accountability Office, and
the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.

Very truly yours,
                            Department of Homeland Security
                   United States Citizenship and Immigration Services
                        Information Technology Management Letter
                                   September 30, 2009

                   INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                      TABLE OF CONTENTS

                                                                                                    Page
Objective, Scope and Approach 

                                                                                                        1
 

Summary of Findings and Recommendations 

                                                                                                        3
 

IT General Control Findings by Audit Area 

                                                                                                        4

 Findings Contributing to a Material Weakness Deficiency in IT 

                                                                                                        4
       Configuration Management
                                                                                                        4
 

       Security Management 
                                                                            4

       Access Controls
                                                                                                        4
 

       Segregation of Duties                                                                            4
 



Application Controls
                                                                                                        8
 


                                                                                                        8
 

Management’s Comments and OIG Response
                                          APPENDICES
 


Appendix                                          Subject                                           Page


           Description of Key USCIS Financial Systems and IT Infrastructure within the Scope of 

   A                                                                                                9
           the FY 2009 Financial Statement Audit


   B       FY 2009 Notices of IT Findings and Recommendations at USCIS                              11 


               -   Notice of Findings and Recommendations – Definition of 

                                                                                                    12
                   Severity Ratings 


   C       Status of Prior Year Notices of Findings and Recommendations and Comparison to           21 

           Current Year Notices of Findings and Recommendations at USCIS

   D       Management’s Comments                                                                    23 


   E       Report Distribution                                                                      29 

                             Department of Homeland Security
 

                    United States Citizenship and Immigration Services 

                         Information Technology Management Letter
                                    September 30, 2009

                      OBJECTIVE, SCOPE AND APPROACH

We have audited the US Citizenship and Immigration Services (USCIS) balance sheet as of
September 30, 2009. In connection with our audit of USCIS’s balance sheet we performed an
evaluation of information technology general controls (ITGC), to assist in planning and performing
our audit. The U.S. Department of Homeland Security – Bureau of Immigration and Customs
Enforcement (ICE) hosts key financial applications for USCIS. As such, our audit procedures over
information technology (IT) general controls for USCIS included testing of the ICE’s Active
Directory\Exchange (ADEX) network and the Federal Financial Management System (FFMS)
policies, procedures, and practices, as well as USCIS policies, procedures and practices at USCIS
Headquarters.

The Federal Information System Controls Audit Manual (FISCAM), issued by the Government
Accountability Office (GAO), formed the basis of our audit. The scope of the USCIS IT general
controls assessment is described in Appendix A. FISCAM was designed to inform financial
auditors about IT controls and related audit concerns to assist them in planning their audit work and
to integrate the work of auditors with other aspects of the financial audit. FISCAM also provides
guidance to IT auditors when considering the scope and extent of review that generally should be
performed when evaluating general controls and the IT environment of a federal agency. FISCAM
defines the following five control functions to be essential to the effective operation of the general
IT controls environment.

�	 Security Management (SM) – Controls that provide a framework and continuing cycle of
   activity for managing risk, developing security policies, assigning responsibilities, and
   monitoring the adequacy of computer-related security controls.
�	 Access Control (AC) – Controls that limit or detect access to computer resources (data,
   programs, equipment, and facilities) and protect against unauthorized modification, loss, and
   disclosure.
�	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to
   information system resources (software programs and hardware configurations) and provides
   reasonable assurance that systems are configured and operating securely and as intended.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.


To complement our general IT controls audit procedures, we also performed technical security
testing for key network and system devices, as well as testing over key financial application
controls in the ICE environment. The technical security testing was performed both over the
Internet and from within select ICE facilities, and focused on test, development, and production
devices that directly support USCIS general support systems.


                                         1

  Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                       Audit
 

                             Department of Homeland Security
 

                    United States Citizenship and Immigration Services 

                         Information Technology Management Letter
                                    September 30, 2009

In addition to testing the general control environment, we performed application control tests on a
limited number of ICE’s financial systems and applications. The application control testing was
performed to assess the controls that support USCIS financial systems’ internal controls over the
input, processing, and output of financial data and transactions.

   �	 Application Controls (APC) - Application controls are the structure, policies, and
      procedures that apply to separate, individual application systems, such as accounts payable,
      inventory, or payroll.




                                         2

  Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                       Audit
 

                             Department of Homeland Security
 

                    United States Citizenship and Immigration Services 

                         Information Technology Management Letter
                                    September 30, 2009

         SUMMARY OF FINDINGS AND RECOMMENDATIONS
During FY 2009, we noted that USCIS made minimal progress in addressing its previously
identified IT internal control weaknesses. Therefore, due to USCIS’s lack of prioritization of the
issues, all seven (7) were reissued. During our review, we continued to identify IT general control
weaknesses that could potentially impact USCIS’s financial data. The most significant weaknesses
from a financial statement audit perspective related to controls over the FFMS and the weaknesses
over physical security and security awareness. Collectively, the IT control weaknesses limited
USCIS’s ability to ensure that critical financial and operational data were maintained in such a
manner to ensure confidentiality, integrity, and availability. In addition, these weaknesses
negatively impacted the internal controls over USCIS financial reporting and its operation and we
consider them to collectively represent a material weakness for USCIS under standards established
by the American Institute of Certified Public Accountants (AICPA). In addition, based upon the
results of our test work, we noted that USCIS did not fully comply with the requirements of the
Federal Financial Management Improvement Act (FFMIA).
Of the 19 findings identified during our FY 2009 testing, 12 were new IT findings. These findings
represent weaknesses in four of the five FISCAM key control areas. Specifically, 1) a lack of
strong password management and audit logging within the financial applications, 2) security
management issues involving staff security training and exit processing procedure weaknesses, 3)
inadequately designed and operating configuration management, and 4) the lack of effective
segregation of duties controls within financial applications. These weaknesses may increase the risk
that the confidentiality, integrity, and availability of system controls and USCIS financial data could
be exploited thereby compromising the integrity of financial data used by management and reported
in USCIS’s financial statements.
USCIS management should ensure that there is emphasis placed on the completion, monitoring and
enforcement of IT security-related policies and procedures. On-going measures to improve the IT
security considerations for key financial systems utilized by USCIS and implement effective access
controls, segregation of duties and configuration management controls need to be completed.
While the recommendations made by KPMG should be considered by USCIS, it is the ultimate
responsibility of USCIS management to determine the most appropriate method(s) for addressing
the weaknesses identified based on their system capabilities and available resources.




                                         3

  Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                       Audit
 

                              Department of Homeland Security
 

                     United States Citizenship and Immigration Services 

                          Information Technology Management Letter
                                     September 30, 2009

IT GENERAL CONTROL FINDINGS BY AUDIT AREA

Findings Contributing to a Material Weakness Deficiency in IT

During the FY 2009 financial statement audit, we identified the following IT control deficiencies
that are considered a material weakness:

1.       Configuration Management – we noted:

         �	 Security configuration management weaknesses on the Active Directory Exchange
            (ADEX). These weaknesses included default configuration settings, inadequate patches,
            and weak password management.
2.       Security Management – we identified:
         �	 Background investigations are not conducted in a timely manner.
         �	 Procedures for transferred/terminated personnel exit processing are not finalized.
         �	 IT Security training is not mandatory nor is compliance monitored.
3.       Access controls – we identified:
         �	 Ineffective safeguards over physical access to sensitive facilities and resources.
         �	 The following account management weaknesses over ADEX, CLAIMS 3 LAN, and
            CLAIMS 4:
             �	 The lack of recertification of system administrators and system users.
             �	 Inefficient definition and documentation of CLAIMS 3 LAN and CLAIMS 4 access
                roles were noted.
             �	 User access is not documented and maintained for CLAIMS 3 LAN and CLAIMS
                4.
             �	 CLAIMS 3 LAN and CLAIMS 4 password configurations do not meet DHS
                requirements.
             �	 Terminated personnel still have active user accounts within CLAIMS 3 LAN and
                CLAIMS 4.
             �	 Generic user accounts exist for the CLAIMS 3 LAN.
         �	 Lack of policies and procedures for maintaining and reviewing CLAIMS 3 LAN and
            CLAIMS 4 audit logs.
         �	 Lack of processes in place for sanitization of equipment and media.
4.       Segregation of Duties– we identified:
         �	 Segregation of duties controls were not enforced through access authorizations in
            CLAIMS 4.
                                            4

     Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                          Audit
 

                              Department of Homeland Security
 

                     United States Citizenship and Immigration Services 

                          Information Technology Management Letter
                                     September 30, 2009

Recommendations: Unless specifically noted where USCIS needs to take specific corrective action,
we recommend that the USCIS Chief Information Officer (CIO) and Chief Financial Officer (CFO),
in coordination with the ICE Office of Chief Financial Officer and the ICE Office of the Chief
Information Officer, make the following improvements to ICE’s information technology:
1.	       Configuration Management:
          �	          Redistribute procedures and train employees on continuously monitoring and
                  mitigating vulnerabilities. In addition, we recommend that ICE periodically monitor
                  the existence of unnecessary services and protocols running on their servers and
                  network devices, in addition to deploying patches.
          �	          Perform vulnerability assessments and penetration tests on all offices of the
                  ICE, from a centrally managed location with a standardized reporting mechanism
                  that allows for trending, on a regularly scheduled basis in accordance with NIST
                  guidance.
          �	         Develop a more thorough approach to track and mitigate configuration
                  management and resource vulnerabilities identified during monthly scans. ICE
                  should monitor the vulnerability reports for necessary or required configuration
                  changes to their environment.
          �	          Develop a process to verify that systems identified with “HIGH/MEDUIM
                  Risk” configuration vulnerabilities do not appear on subsequent monthly
                  vulnerability scan reports, unless they are verified and documented as a false-
                  positive. All risks identified during the monthly scans should be mitigated
                  immediately, and not be allowed to remain dormant.
          �	          Implement the corrective actions identified during the audit vulnerability
                  assessment as identified in the issued NFR.

2.        S
          	 ecurity Management:
          �	 Periodically review personnel files to confirm background investigations have been
             completed in accordance with DHS standards.
          �	 Adhere to exit clearance procedures and enforce personnel adherence in the event of
             transfer\termination.
          �	 Implement mandatory requirements for IT security personnel to complete training
             consistent with their job duties.
          �	 Establish and implement requirements for personnel to complete Computer Security
             Awareness training annually. Also, develop a process to disable user accounts and
             access privileges for non compliant staff.
3.         Access Controls:
          �	 Establish and implement emergency exit and re-entry procedures at the Technology
             Engineering Consolidation Center (TECC).

                                             5

      Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                           Audit
 

                             Department of Homeland Security
 

                    United States Citizenship and Immigration Services 

                         Information Technology Management Letter
                                    September 30, 2009

       �	 Implement effective physical access controls over the server cage which houses USCIS
          servers at the TECC.
       �	 Conduct and document annual reviews of application users and users with system
          administrator access to ADEX.
       �	 Establish and enforce procedures for the completion and maintenance of user access
          forms for CLAIMS 3 LAN and CLAIMS 4 across all service centers.
       �	 Establish a process to ensure CLAIMS 3 LAN and CLAIMS 4 are configured to meet
          DHS password configuration requirements.
       �	 Develop and implement policies and procedures to remove terminated users and generic
          accounts from the CLAIMS 3 LAN.
       �	 Establish a process to review and maintain system audit logs.

4. 	 Segregation of Duties:
         �	 Define and document the policies and procedures for identifying and approving
            CLAIMS 4 user roles\profiles to include user responsibilities and segregation of duties
            initiatives.


USCIS Specific Recommendations:

5. 	    We recommend that the offices of the USCIS CIO, ICE CIO, and DHS CIO coordinate to
        develop an Interagency Agreement for the ICE/USCIS relationship. The agreement should
        be developed using appropriate guidance from NIST 800-53. Specific to this NFR, the
        Interagency Agreement should document the processes by which ICE will notify USCIS of
        its planned remediation of the ADEX security vulnerabilities. USCIS should further take a
        proactive approach in monitoring the resolution of the ADEX vulnerabilities.
6. 	    The USCIS CIO should ensure that USCIS has a sound understanding of the ICE security
        vulnerabilities that affect USCIS data integrity. USCIS should then develop remediation
        plans and compensating controls, as applicable, to address potential data integrity issues.
        For example, more frequent reconciliation of financial accounts may be required.



Cause\Effect:
The ICE agency is not continuously monitoring the ICE ADEX General Support System (GSS)
vulnerability assessment scans for patch and configuration management vulnerabilities. USCIS
management has not proactively coordinated with ICE to establish a detailed and documented
Interagency Agreement for the IT services provided by ICE. As a result, default configuration
installations and unnecessary services operating on the ICE ADEX devices increases the ability to
compromise the availability, integrity, and confidentiality of financial data on the network.
Additionally, failure to apply critical vendor security patches exposes system and network devices
to new and existing vulnerabilities. This can expose the information system controls environment

                                          6

   Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                        Audit
 

                             Department of Homeland Security
 

                    United States Citizenship and Immigration Services 

                         Information Technology Management Letter
                                    September 30, 2009

to security breaches, unauthorized access, service interruptions, and denial of service attacks. These
weak IT controls at ICE, specifically with ADEX, have a direct and significant negative impact on
USCIS financial data integrity. Consequently, USCIS requires additional resources to implement
compensating controls needed to ensure fair presentation of its financial statements.

Due to a lack of USCIS management oversight, the controls environment remains weak and needs
overall improvement. The lack of a strong controls environment increases the risk of improper
handling of sensitive information, unauthorized access to financial data, improper staff training,
and improper segregation of duties and least privilege principles.

Reasonable assurance should be provided that system user access levels are limited and monitored
for appropriateness. The weaknesses identified within USCIS’s access controls increases the risk
that staff may have access to a system that is outside the realm of their job responsibilities. This
access could allow a person to intentionally or inadvertently use various functions to alter the
integrity of executable files and scripts within the financial system.

Criteria: The Federal Information Security Management Act (FISMA) passed as part of the
Electronic Government Act of 2002, mandates that Federal entities maintain IT security programs in
accordance with OMB and NIST guidance. OMB Circular No. A-130, Management of Federal
Information Resources, and various NIST guidelines describe specific essential criteria for
maintaining effective general IT controls. FFMIA sets forth legislation prescribing policies and
standards for executive departments and agencies to follow in developing, operating, evaluating,
and reporting on financial management systems. The purpose of FFMIA is to: (1) to provide for
consistency of accounting by an agency from one fiscal year to the next, and uniform accounting
standards throughout the Federal Government; (2) require Federal financial management systems to
support full disclosure of Federal financial data, including the full costs of Federal programs and
activities; (3) increase the accountability and credibility of federal financial management; (4)
improve performance, productivity and efficiency of Federal Government financial management;
and (5) establish financial management systems to support controlling the cost of the Federal
Government. In closing, for this year’s IT audit we assessed the DHS component’s compliance
with DHS Sensitive System Policy Directive 4300A.




                                         7

  Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                       Audit
 

                             Department of Homeland Security
 

                    United States Citizenship and Immigration Services 

                         Information Technology Management Letter
                                    September 30, 2009




                      APPLICATION CONTROL FINDINGS

We did not identify any IT findings in the area of application controls during the FY 2009 Financial
Statement Audit Engagement.




          MANAGEMENT’S COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the USCIS management. USCIS
management agreed with our findings and recommendations. USCIS management has developed a
remediation plan to address these findings and recommendations. A copy of the comments is
included in Appendix D.


OIG Response


We agree with the steps that USCIS management is taking to satisfy these recommendations.




                                         8
  Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                       Audit
 

                                                                        Appendix A

                        Department of Homeland Security

               United States Citizenship and Immigration Services 

                    Information Technology Management Letter
                               September 30, 2009




                                  Appendix A


 Description of Key USCIS Financial Systems and IT Infrastructure
     within the Scope of the FY 2009 Financial Statement Audit




                                       9

Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                     Audit
 

                                                                                     Appendix A

                            Department of Homeland Security
 

                   United States Citizenship and Immigration Services 

                        Information Technology Management Letter
                                   September 30, 2009



Below is a description of significant USCIS and ICE financial management systems and supporting
information technology (IT) infrastructure included in the scope of USCIS’s fiscal year (FY) 2009
Financial Statement Audit.


Locations of Review: USCIS Headquarters, Washington, DC; Verizon Data Center, Manassas, VA;
Vermont Service Center, Burlington, VT.
ICE Headquarters, Washington, DC; The Burlington Finance Center (BFC), Burlington, VT;
Department of Commerce (DOC) Office of Computer Services (OCS), Springfield, VA.


Systems Subject to Audit:
�	 Federal Financial Management System (FFMS): It is used to create and maintain a record of
   each allocation, commitment, obligation, travel advance and accounts receivable issued. It is
   the system of record for the agency and supports all internal and external reporting
   requirements.

�	 ICE Network: The ICE Network, also known as the Active Directory\Exchange (ADEX) E-mail
   System, is the general support system (GSS) for ICE and other DHS components, such as the
   USCIS.
�	 Computer-Linked Application Management System (CLAIMS)3 Local Area Network (LAN):
   Provides a decentralized LAN based system that supports the requirements of the Direct Mail
   Phase I and II, Immigration Act of 1990 (IMMACT 90) and USCIS forms improvement
   projects. The Claims 3 LAN is located at each of the service centers (Nebraska, California,
   Texas, Vermont, and the National Benefits Center).
�	 CLAIMS 4: The system is a client/server application that tracks and manages naturalization
   applications. The central Oracle Database is located in Washington, DC while application
   servers and client components are located throughout USCIS service centers and district offices.




                                         10
  Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                       Audit
 

                                                                          Appendix B

                         Department of Homeland Security

                United States Citizenship and Immigration Services 

                     Information Technology Management Letter
                                September 30, 2009




                                  Appendix B 

FY 2009 Notices of IT Findings and Recommendations at USCIS 





                                        11

 Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                      Audit
 

                                                                                       Appendix B

                             Department of Homeland Security
                    United States Citizenship and Immigration Services
                         Information Technology Management Letter
                                    September 30, 2009




Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on
the Department of Homeland Security (DHS) Consolidated Independent Auditors Report.

      1 – Not substantial 

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for consolidated reporting purposes.

These rating are provided only to assist USCIS in the development of its corrective action plans for
remediation of the deficiency.




                                         12
  Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                       Audit
 

                                                                                                                                       Appendix B

                                               Department of Homeland Security
 

                                      United States Citizenship and Immigration Services 

                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                                       Repeat   Severity
NFR #     Condition                                                  Recommendation                                        New Issue
                                                                                                                                       Issue    Rating
CIS-IT­   We inspected the National Benefits Center (NBC)            Continue to define and document the various                           X        2
09-01     CLAIMS        3    LAN     user    role/responsibilities   CLAIMS 3 LAN roles and their associated
          documentation and determined that the system settings      responsibilities for the remaining service centers.
          and assigned user roles within the system do not
          accurately reflect documented user responsibilities.
CIS-IT­   NBC does not perform periodic CLAIMS 3 LAN user            Establish and implement policies and procedures                      X         2
09-02     access reviews to ensure that users' level of access       for handling, reviewing, and retention of Claims 3
          remains appropriate and there are no procedures            LAN user account request forms.
          established for performing periodic reviews.



CIS-IT­   Management at the USCIS Headquarters (HQ) and the          Establish and enforce procedures for the                             X         2
09-03     Service Center, Vermont has not completed or               completion and maintenance of user access forms
          inadequately documented access forms for CLAIMS 3          for CLAIMS 3LAN and CLAIMS 4 for all the
          LAN and CLAIMS 4, system users.                            service centers.


CIS-IT­   The USCIS HQ has not maintained or documented a            Conduct and document annual reviews of all users                     X         2
09-04     selection    of   system administrator’s access            with Active Directory system administrator access.
          authorization forms.




                                                         13
               Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                                                   Appendix B

                                              Department of Homeland Security
 

                                     United States Citizenship and Immigration Services 

                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                                                   Repeat   Severity
NFR #     Condition                                                Recommendation                                      New Issue
                                                                                                                                   Issue    Rating
CIS-IT­   The biometric facial recognition scanner allowed         �   Establish and implement backup media                            X        2
09-06     unauthorized personnel access to USCIS server room,          retention and rotation policies.
          and procedures regarding removal, authorization, and     �   Establish and implement emergency exit and
          logging of USCIS backup media are not in place for           re-entry procedures.
          the Technology Engineering Consolidation Center
                                                                   �   Develop a process that assures all resources
          (TECC).
                                                                       with access to the USCIS resources adhere to
                                                                       the policy and procedure.
                                                                   �   Implement stronger physical access controls
                                                                       over the server cage door to prevent further
                                                                       unauthorized access

CIS-IT­   USCIS has not finalized a policy that outlines the       Update and finalize their policies and procedures                  X         2
09-07     process for developing forms for labeling and tracking   to reflect their current media sanitization
          the disposition process or provided clear instructions   operation.
          for conducting media wipes or purges of data.
CIS-IT­   USCIS does not recertify its system administrator        Management should establish a more timely                          X         2
09-08     accounts on an annual basis.                             process to perform a periodic review of user
                                                                   accounts ensuring proper authorization and
                                                                   training.
CIS-IT­   CLAIMS 3 LAN password re-use and length                  � Establish a process to ensure that USCIS             X                     2
09-09     configurations does not meet DHS standards.                  systems are configured to meet minimum DHS
          CLAIMS 3 LAN generic user accounts was not timely            password configurations and requirements.
          removed because of a lack of user account                � Remove all generic accounts to CLAIMS 3
          recertification.                                             LAN production systems and perform periodic
                                                                       reviews of the user access list to ensure
                                                                       compliance.




                                                         14
               Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                                                  Appendix B

                                             Department of Homeland Security
 

                                    United States Citizenship and Immigration Services 

                                         Information Technology Management Letter
                                                    September 30, 2009

                                                                                                                                  Repeat   Severity
NFR #     Condition                                              Recommendation                                       New Issue
                                                                                                                                  Issue    Rating
CIS-IT­   CLAIMS 4 LAN password configuration settings does      We recommend that USCIS establish a process to          X                     2
09-10     not meet DHS4300A password standards.                  ensure CLAIMS 4 LAN is configured to meet
                                                                 DHS4300A password configuration standards.

CIS-IT­   We identified that an inadequate background            We recommend that USCIS management                      X                     2
09-11     investigation was performed and documented for one     periodically review personnel files to confirm
          new hire personnel from a sample of 25.                background investigations have been completed in
                                                                 accordance with DHS standards.
CIS-IT­   We inspected a sample of personnel that had            We recommend that USCIS management adhere to            X                     2
09-12     terminated/transferred from their employment with      exit clearance procedures and require personnel to
          USCIS. Of the 28 terminated/transferred USCIS          follow them in an event of transfer/termination.
          personnel sampled, evidence of compliance with exit
          clearance procedures could not be provided for 19
          employees.
CIS-IT­   Vermont Service Center (VSC) has ineffective           � Establish and implement procedures for                X                     2
09-13     safeguards over the computer room in the Office of       maintaining and authorizing the OIT’s
          Information Technology (OIT). VSC procedures             computer room access list.
          regarding the removal, authorization and logging of    � Establish and implement backup media
          backup media are not in place. VSC procedures for        retention and rotation policies.
          ensuring accuracy and completeness over visitor logs   � Enforce completeness and accuracy over visitor
          are not enforced.                                        information in logs.




                                                        15
              Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                                                      Appendix B

                                               Department of Homeland Security
 

                                      United States Citizenship and Immigration Services 

                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                                      Repeat   Severity
NFR #     Condition                                                  Recommendation                                       New Issue
                                                                                                                                      Issue    Rating
CIS-IT­   During our testing of access controls for FFMS, in our     We recommend that USCIS establish and enforce           X                     2
09-14     sample of 25 active users, we noted one user’s access      policies and procedures that ensure that roles and
          was excessive, based on the access approved by their       responsibilities are commensurate with their job
          present supervisor. We learned that this user’s profile    function.
          was changed as the user relocated to a different service
          center. However, when the profile change was
          requested, the FFMS administrator did not remove all
          previous access nor assure that the access rights were
          current and authorized. As a result, the user had
          excessive privileges for her role and responsibilities.
          We also noted that the USCIS SOP did not reflect this
          procedure though we learned through inquiry that the
          FFMS administrators are required to remove all prior
          access when performing a profile change.

          As a result of our test work, USCIS responded by
          removing the excessive access to reflect the user’s role
          and responsibilities. In addition, USCIS updated their
          SOP to require all previous access to be confirmed and
          removed prior to granting new access roles.

CIS-IT­   We identified a lack of audit logging policies over the    We recommend that USCIS establish and enforce           X                     2
09-15     application and server logs for the CLAIMS 3 and           policies and procedures for maintenance and
          CLAIMS 4 LAN system.                                       review of audit logging.




                                                         16
               Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                                                    Appendix B

                                              Department of Homeland Security
 

                                     United States Citizenship and Immigration Services 

                                          Information Technology Management Letter
                                                     September 30, 2009

                                                                                                                                    Repeat   Severity
NFR #     Condition                                               Recommendation                                        New Issue
                                                                                                                                    Issue    Rating
CIS-IT­   We identified weaknesses within access controls for     � Establish and implement policies and                   X                     2
09-16     CLAIMS 4 over lack of procedures for recertifying          procedures for the handling, periodically
          user access, lack of evidence of least privilege and       reviewing, and retaining CLAIMS 4 user
          segregation of duties controls, and untimely removal       account request forms.
          of terminated personnel accounts.                       � Define and document policies and procedures
                                                                     for identifying and approving CLAIMS 4 user
                                                                     roles/profiles    to     include   the    user’s
                                                                     responsibilities. In addition, the policies and
                                                                     procedures should address and implement
                                                                     segregation of duties procedures.
                                                                  � Develop policies and procedures for the
                                                                     removal of transferred/terminated users within
                                                                     CLAIMS 4 upon their separation from USCIS.
CIS-IT­   We identified weaknesses within monthly trainings of    We recommend that USCIS management                       X                     2
09-17     USCIS’ ISSOs.                                           implement mandatory training requirements for IT
                                                                  security personnel to complete training consistent
                                                                  with their job function duties.
CIS-IT­   We determined that weaknesses exist related to          We recommend that USCIS management develop               X                     2
09-18     CLAIMS3 LAN access. Specifically, we identified 21      and implement policies and procedures for the
          users which were separated from USCIS and still         removal of separated users within CLAIMS 3
          retained access to the CLAIM3 LAN.                      LAN upon their separation.


CIS-IT­   We tested a sample of personnel that were required to   �   Establish and implement requirements for             X                     2
09-19     complete annual Computer Security Awareness                 personnel to complete Computer Security
          Training during the fiscal year. Of the thirty (30)         Awareness Training annually.
          personnel sampled, evidence of compliance could not     �   Develop a process to disable user accounts and
          be provided for two (2) employees. Additionally,            access privileges in accordance with DHS
          procedures are not in place to disable user accounts        policies for employees not in compliance.


                                                         17
               Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                                                      Appendix B

                                               Department of Homeland Security
 

                                      United States Citizenship and Immigration Services 

                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                                      Repeat   Severity
NFR #     Condition                                                 Recommendation                                        New Issue
                                                                                                                                      Issue    Rating
          and access privileges if annual training is not
          completed on a timely basis.




CIS-IT­   During the internal vulnerability assessment efforts of                                                            X                 N\A-
                                                                    In addition to addressing the specific
09-20     network servers and systems we identified several                                                                                    Issued
          High/ Medium Risk vulnerabilities, related to             vulnerabilities identified in the condition, ICE                           after
          configuration management. We determined that              should:                                                                    release of
          security configuration management weaknesses (i.e.,       �    Redistribute procedures and train employees                           DHS audit
          missing security patches and incorrect configuration           on continuously monitoring and mitigating                             report
          settings) exist on hosts supporting the ICE.                   vulnerabilities. In addition, we recommend
                                                                         that ICE periodically monitor the existence of
                                                                         unnecessary services and protocols running
                                                                         on their servers and network devices, in
                                                                         addition to deploying patches.
                                                                    �    Perform vulnerability assessments and
                                                                         penetration tests on all offices of the ICE,
                                                                         from a centrally managed location with a
                                                                         standardized reporting mechanism that
                                                                         allows for trending, on a regularly scheduled
                                                                         basis in accordance with NIST guidance.
                                                                    �    Develop a more thorough approach to track
                                                                         and mitigate configuration management
                                                                         vulnerabilities identified during monthly
                                                                         scans. ICE should monitor the vulnerability
                                                                         reports    for     necessary    or    required
                                                                         configuration changes to their environment.


                                                         18
               Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                                       Appendix B

                                       Department of Homeland Security
 

                              United States Citizenship and Immigration Services 

                                   Information Technology Management Letter
                                              September 30, 2009

                                                                                                                       Repeat   Severity
NFR #   Condition                                    Recommendation                                        New Issue
                                                                                                                       Issue    Rating
                                                     �    Develop a process to verify that systems
                                                          identified with “HIGH/MEDUIM Risk”
                                                          configuration vulnerabilities do not appear on
                                                          subsequent monthly vulnerability scan
                                                          reports, unless they are verified and
                                                          documented as a false-positive. All risks
                                                          identified during the monthly scans should be
                                                          mitigated immediately, and not be allowed to
                                                          remain dormant.
                                                     USCIS should:
                                                     �   We recommend that the offices of the USCIS
                                                         CIO, ICE CIO, and DHS CIO coordinate to
                                                         develop an Interagency Agreement for the
                                                         ICE/USCIS relationship. The agreement
                                                         should be developed using appropriate
                                                         guidance from NIST 800-53. Specific to this
                                                         NFR, the Interagency Agreement should
                                                         document the processes by which ICE will
                                                         notify USCIS of its planned remediation of the
                                                         ADEX security vulnerabilities. USCIS should
                                                         further take a proactive approach in
                                                         monitoring the resolution of the ADEX
                                                         vulnerabilities.
                                                     �   The USCIS CIO should ensure that USCIS has
                                                         a sound understanding of the ICE security
                                                         vulnerabilities that affect USCIS data
                                                         integrity. USCIS should then develop
                                                         remediation plans and compensating controls,

                                                      19
            Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                                   Appendix B

                                       Department of Homeland Security
 

                              United States Citizenship and Immigration Services 

                                   Information Technology Management Letter
                                              September 30, 2009

                                                                                                                   Repeat   Severity
NFR #   Condition                                    Recommendation                                    New Issue
                                                                                                                   Issue    Rating
                                                        as applicable, to address potential data
                                                        integrity issues. For example, more frequent
                                                        reconciliation of financial accounts may be
                                                        required.




                                                      20
            Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                        Appendix C

                        Department of Homeland Security

               United States Citizenship and Immigration Services 

                    Information Technology Management Letter
                               September 30, 2009




                                 Appendix C 


Status of Prior Year Notices of Findings and Recommendations 

                      and Comparison to
 

 Current Year Notices of Findings and Recommendations at
 

                                    USCIS
 





                                       21
Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                     Audit
 

                                                                                      Appendix C

                                Department of Homeland Security
                       United States Citizenship and Immigration Services
                            Information Technology Management Letter
                                       September 30, 2009




                                                                                     Disposition
NFR No.          Description                                                     Closed       Repeat

                  Lack of Definition and Documentation of Access Roles at the
  CIS-IT-08-01                                                                                 09-01
                  National Benefits Center for CLAIMS 3 LAN
                  Periodic CLAIMS 3 LAN User Access Reviews are not Performed
  CIS-IT-08-02    at the NBC                                                                   09-02

                  Incomplete or Inadequate Access Request Forms for CLAIMS 3
  CIS-IT-08-03    LAN, CLAIMS 4, and CISCOR System Users at Headquarters                       09-03
                  and the Service Centers
                  Ineffective Controls for Restricting Security Software Exist
  CIS-IT-08-04                                                                                 09-04
                  Weak Data Center Access Controls
  CIS-IT-08-06                                                                                 09-06

  CIS-IT-08-07    Equipment and Media Policies and Procedures are not Current                  09-07
                  Weak Access Controls for Security Software Exist
  CIS-IT-08-08                                                                                 09-08




                                             22
      Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                           Audit
 

                                                                        Appendix D

                        Department of Homeland Security
               United States Citizenship and Immigration Services
                    Information Technology Management Letter
                               September 30, 2009




                                 Appendix D 


                  USCIS Management’s Comments 





                                       23

Information Technology Management Letter for the FY 2009 USCIS Financial Statement 

                                     Audit
 

                                                                                                                  Appendix D
                                Department of Homeland Security 

                             Immigration and Customs Enforcement 

                            Information Technology Management Letter
                                       September 30, 2009

                                                                              U.S. Ut.>llartmcnl of Ilumcl:md St'curilJ
                                                                              U.S. Cnizcnship :lml IrnrlllgrauQn Sen ices
                                                                              Ubic/! ufl/I/! Cltif'f"!forl/ltl//Ull Ubic<'"
                                                                              Waihwgtol1. DC 2052')

                                                                              u.s. Citizenship
                                                                              and Irrunigration
                                                                              Services




       April 28. 2010

       Memorandum
       TO:         Frank Deffer
                   Assistant Inspector General for Information Technology Audit
                   U.S. Dcpartment of Homeland Security

       FROM: LeSlie Hope           ,-1/ IJ;~
               V   C'hief Inform ati[ b'mccr, Acting

       SUBJ ECT: Managcment Rcsponse to the IT Managemcnt Letter for the FY 2009 U.S.
                 Citizenship and Immigration Services Financial Integrated Audit

       We would like to thank you for the opp0rlunity to review and comment on the rr Managcment
       Leiter for the FY 2009 U.S. Citizenship and Immigration Services Financial Integratcd Audit.
       USCIS requests that your Office make the following changes to the Independent Auditor's IT
       Management Letter report.

       Except for the items notcd below, USCIS agrees <lnd accepts all finding, cOl11ments. and
       conclusions the independent auditors exprcssed in the IT Management Letter report.

       Findings Contributing to .a Material Weakness Deficiencv in IT

       During the FY 2009 financial statemcnt audit, we identified the following IT control deficiency
       that is considered a material weakness:

       I. Configuration Management - we noted:

          •   Security configuration management weakncsses on the Active Directory Exchangc
              (ADEX). These weaknesses included default configuration scttings, inadequate patchcs,
              and weak password management.

      Recommendations: Unless specifically noted where USCIS needs to take specific corrective
      action, we recommend that the USCIS Chief Infonnation Officer (CIO) and Chief Financial
      Officer (CFO), in coordination with the ICE Office of Chief Financial Officer and the ICE Oflice



                                                                              www.u:.cis.go\,




                                          24
Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                       Appendix D
                               Department of Homeland Security 

                            Immigration and Customs Enforcement 

                           Information Technology Management Letter
                                      September 30, 2009


       Management Response to the IT Management Letter for the FY 2009 U.S. Citizenship and
       Immigration Services Financial Integrated Audit
       Page 2

       of the Chieflnfonnation Officer, make the following improvemems to ICE's infonnation
       technology security program:

       Suggested Change:

       "During the FY 2009 financial statement audit, we identified that the Immigration and Customs
       Enforcement (ICE) Headquarters hosts the Active Directory Exchange (ADEX), General
       Support System (GSS) and a key financial application for USCIS. We identified the following
       ICE IT control deficiencies that significantly impact USCIS and are considered material
       weaknesses:

       I. Configuration Management - we noted:

       Several HighlMedium risk vulnerabilities related to configuration management were identified.

          •   Security configuration management weaknesses on the ICE's ADEX. These weaknesses
              included default configuration settings, inadequate patches, and weak password
              management.

       Recommendations: Unless specifically noted where USCIS needs to take specific corrective
       action, we recommend that the USCIS Chieflnfonnation Officer (CIO) and Chief Financial
       Officer (CFO), in coordination with the ICE Office orChid Financial Officer and the ICE Office
       of the Chief Infonnation Officer, make the following improvemcnts to ICE's infonnation
       technology security program:

      "ICE Specific Recommendations"

       Your recommendation statement alludes to USCIS having control over actions to be perfonned
       by ICE. Recommendations I through 5 are strictly ICE's actions within their control. Your
       statement does not clearly identify these as actions ICE must take.

       Other Findings

      The following IT and financial system control deficiencies that contributed to a material
      weakness are noted below:

       I. Securily Management - we identified:

          •   Background investigations are not conducted in a timely manner.
          •   Procedures for transferredltenninated personnel exit processing are not finalized.
          •   IT Security training is not mandatory nor is compliance monitored...

      Recommendations: We recommend that the USCIS CIO and CFO, in coordination with the DHS
      Office of Chief Financial Officer and the DHS Office ofthc Chieflnfonnation Officer, make the




                                          25
Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                        Appendix D
                               Department of Homeland Security 

                            Immigration and Customs Enforcement 

                           Information Technology Management Letter
                                      September 30, 2009


       Management Response to the IT Management Letter for the FY 2009 U.S. Citizenship and
       Immigntion Services Financial Integrated Audit
       Page 3

       following improvements to USCIS' financial management systems and associated information
       technology security program."

       Response Comment;

      USCIS has realigned its mission support activitics undcr an Associate Director Management.
      The new Associate Director has taken action to correct the three deficiencies under his span of
      control.

      Appendix A

      Systems SubjectJO Audit

          •   Computer Linked Application Management System (CLAIMS) 3 Local Area Network
              (LAN): Provides a decentralized LAN based system that supports the requirements of
              the Direct Mail Phase I and U, Immigntion Act of 1990 (IMMACT 90) and USCIS
              fonns improvement projects. The Claims 3 LAN is located at each of the service centC13
              (Nebraska, California, Texas., Vermont) and the National Benefits Center.

      Suggested Change:

          •   Computer Linked Application Management System (CLAIMS) 3 Local Area Network
              (LAN): Provides a decentralized LAN based system that supports the requirements of
              the Direct Mail Phase I and II, Immigration Act of 1990 (IMMACT 90) and USCIS
              fonns improvement projccts. The CLAIMS 3 LAN is located at each of the service
              centers (i.e., Nebraska, California, Texas, and Vermont) and the National Benefits
              Center.

      Appendix B - Notice of Findings and Recommendations Table

      NFR II; CIS-IT-09-04

      Condition; The USCIS HQ has not maintained or documented a selection of system
      administrator's access authorization forms.

      Recommendation: Conduct and document annual reviews of all users with Active Directory
      systems administrator access."

      Suggested Ch3llge:

      Condition: The USCIS has not maintained or documented a selection ofADEX system
      administrator's access authorization fonns.

      Recommendation: Conduct and document annual reviews of all users with Active Directory
      systems administrator access in coordination with ICE."




                                          26
Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                       Appendix D
                                Department of Homeland Security 

                             Immigration and Customs Enforcement 

                            Information Technology Management Letter
                                       September 30, 2009


       Management Response to the IT Management Letter for the FY 2009 U.S. Citizenship and
       Immigrntion Services Financial Integrated Audit
       Page 4


       NFR #: CIS-IT-09-08

       Condition: USCIS does not recertify its systcm administrator accounts on an annual basis.

       Suggested Change:

       Condition: USCIS does not recertify its Local PICS Officer (LPO) accounts on an annual basis.

       NFR #: CIS·IT·09·10

       Condition: CLAIMS 4 LAN password configuration settings does not meet DHS 4300A
       password standards.

       Recommendation: We recommend that USCIS establish a process to ensure CLAIMS 4 LAN is
       configured to meet DHS 4300A password configuration standards.

       Suggested Change:

       Condition: CLAIMS 4 password configuration setting for password history does not meet DHS
       4300A password standards.

       Recommendation: We recommend CLAIMS 4 password history selling be changed from 6
       generations to 8 generations to meet DHS 4300A password configuration standards.

       NFR II: CIS-IT-II and CIS-IT-12

       Note: The OCIO is not the owner ofthcse processes. These NFRs were signed by and are the
       responsibility of the Office of Security and Integrity (OSI) and the Office of Human Capital and
       Training (HCT).

       NFR #: CIS-IT-09-14

      Note: The OCIO is not the owner of this process. This NFR was signed by and is the
      responsibility of the OCFO. They grant, remove, and monitor access to FFMS.

      NFR II: CIS·IT·OS·OJ
      Description: Lack of Definition and Documentation of Access Roles at the National Benefits
      Center for CLAlMS 3 LAN.

      NFR II: CIS~IT-08-04
      Description: Ineffective Controls for Restricting Security Software Exist.

      NFR#: CIS-IT-08-08
      Description: Weak Access Controls for Security Software Exist.




                                          27
Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                                                           Appendix D
                                Department of Homeland Security 

                             Immigration and Customs Enforcement 

                            Information Technology Management Letter
                                       September 30, 2009


       Management Response to the IT Management Letter for the FY 2009 U.S. Citizenship and
       Immigration Services Financial Integrated Audit
       PageS


       Suggested Change:

       NFR #: CIS-IT-OS-Ql
       Description: Inefficient Definition and Documentation of Access Roles at the National Benefits
       Center for CLAIMS 3 LAN.

       As stated, it gives the impression that Definition and Documentation of Access Roles do not
       exist.

       NFR #: CIS-IT-08-04
       Description: Periodic Active Directory and Eltchange (ADEX) system administrator access
       reviews are not perfonned at USCIS.

       As stated, it gives the impression all controls related to security software are ineffective. The
       signed NFR specifically addresses ADEX.

       NFR #: CIS·IT·08·08
       Description: Weak Access Controls for Security Software Eltist within the Password Issuance
       and Control System (PIeS).

       As stated. it gives the impression all controls related to security software are weak. The signed
       NFR specifically addresses PICS.

       USCIS is committed to resolving all control deficiencies and weaknesses idenlified in the audit
       and have prepared Mission Action Plans to resolve and improve the Agency's infomtation
       technology controls.

       USCIS appreciates the cooperation and respect that your staff provided during the course of the
       audit and looks forward to continuing our strong working relationship with your office.

       If you have any questions regarding our comments, plcase cOnlnct Leslie Hope, Acting Chief
       Infonnation Officer at (202) 272-1018.




                                          28
Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                               Appendix E
                           Department of Homeland Security
 

                        Immigration and Customs Enforcement 

                       Information Technology Management Letter
                                  September 30, 2009




                                   Appendix D 


                              Report Distribution 





                                          29

Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
                                                                               Appendix E
                           Department of Homeland Security
 

                        Immigration and Customs Enforcement 

                       Information Technology Management Letter
                                  September 30, 2009

   Report Distribution

                 Department of Homeland Security

                 Secretary

                 Deputy Secretary 

                 General Counsel 

                 Chief of Staff 

                 Deputy Chief of Staff 

                 Executive Secretariat 

                 Under Secretary, Management 

                 Director, USCIS 

                 DHS Chief Information Officer 

                 DHS Chief Financial Officer 

                 Associate Director-Management, USCIS 

                 Acting Chief Financial Officer, USCIS 

                 Acting Chief Information Officer, USCIS 

                 Chief Information Security Officer 

                 Assistant Secretary, Policy 

                 Assistant Secretary for Public Affairs 

                 Assistant Secretary for Legislative Affairs 

                 DHS GAO OIG Audit Liaison 

                 Chief Information Officer, Audit Liaison 

                 USCIS Audit Liaison 


                 Office of Management and Budget

                 Chief, Homeland Security Branch 

                 DHS OIG Budget Examiner 


                 Congress

                 Congressional Oversight and Appropriations Committees as Appropriate




                                          30
Information Technology Management Letter for the FY 2009 USCIS Financial Statement Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
